2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

C@OCKLE

Legal Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com

No. 20-1735

ANGEL MANUEL ORTIZ-DIAZ, ET AL.,
PETITIONERS,
Vv.
UNITED STATES, ET AL.,
RESPONDENTS.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that | did, on the 19th day of July, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE LIBERTY JUSTICE CENTER AS AMICUS
CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by

Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Brian K. Kelsey
Counsel of Record
James J. McQuaid
LIBERTY JUSTICE CENTER
141 W. Jackson St., Ste. 1605
Chicago, IL 60604
(312) 637-2280
bkelsey@libertyjusticecenter.org

Subscribed and sworn to before me this 19th day of July, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
vi My Comm. Exp. September 8, 2023

Qudiow-h, Chile

 

 

Notary Public

Affiant 41138
Attorneys for Petitioners

John Michael Connolly
Counsel of Record
Consovoy McCarthy PLLC
1600 Wilson Blvd
Suite 700
Arlington, VA 22209
mike@consovoymecarthy.com
703-243-9423
Party name: Angel Manuel Ortiz-Diaz, et al.

Attorneys for Respondents

Elizabeth B. Prelogar

Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOI.gov
202-514-2217
Party name: United States, et al.
